No. 20-1034

 

 

IN THE

Supreme Court of the United States

NARKIS ALIZA GOLAN,

Petitioner,
v.

Isacco JACKY SAADA,

Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Second Circuit

BRIEF OF AMICUS CURIAE FREDERICK K.
COX INTERNATIONAL LAW CENTER IN
SUPPORT OF PETITIONER

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
5,144 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on March 1, 2021.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
